                              SOCIAL SECURITY
                                                                       Inspector General
                                           April 28, 2003

The Honorable Charles E. Grassley
Chairman, Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Mr. Chairman:

In response to your questions regarding the Social Security Number (SSN) Feedback Pilot
Project that was conducted in Massachusetts and Illinois, I am pleased to provide you the
enclosed report. Specifically, you were interested in the status of the SSN Pilot process
designed to verify the names and SSNs of new employees.

Our objective was to determine (1) the status of the Social Security Administration’s (SSA)
evaluation of its joint pilot with the Office of Child Support Enforcement to verify employees'
SSNs and (2) whether the SSN Pilot can assist SSA in its efforts to reduce the growth of the
Earnings Suspense File.

The enclosed report contains information related to:

   •   the current status of the SSN pilot;
   •   the potential benefits of the SSN Pilot to SSA, employers, and employees; and
   •   other possible benefits among several Federal agencies that use this name and SSN
       information.

If you have any questions or would like to be briefed on this issue, please call me or have
your staff contact H. Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                               Sincerely,




                                               James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner




             SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT

Review of the Social Security Number
       Feedback Pilot Project
             A-03-03-13017




             APRIL 2003
                                      Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                     Authority
The Inspector General Act created independent audit and investigative units, called
the Office of Inspector General (OIG). The mission of the OIG, as spelled out in the
Act, is to:

   Conduct and supervise independent and objective audits and investigations
    relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                       Vision
By conducting independent and objective audits, investigations, and evaluations, we
are agents of positive change striving for continuous improvement in the Social
Security Administration's programs, operations, and management and in our own
office.
                                                                         Background
We are providing information on the Social Security Number (SSN) Pilot Project1 regarding
the advantages for the Social Security Administration (SSA), employers, employees, and
other Federal and State programs that use SSN information.

SOCIAL SECURITY NUMBER FEEDBACK PILOT
The SSN Pilot was a joint effort between SSA and the Department of Health and Human
Services’ Office of Child Support Enforcement (OCSE). The SSN Pilot’s goal was to
promptly inform employers when they submitted a new employee or "new hire" report that
included an incorrect name and SSN combination. The SSN Pilot, conducted in
Massachusetts and Illinois, began in spring 1999 and lasted 1 year. At its completion, SSA
and OCSE worked with the two States and relevant employers to evaluate the benefits and
costs of this early notification system.

The Personal Responsibility and Work Opportunity Reconciliation Act of 19962 authorized
OCSE to establish a “National Directory of New Hires” (NDNH) containing the data provided
by new employees on the Employee's Allowance Withholding Certificate (Internal Revenue
Service [IRS] Form W-4).3 Once OCSE has collected these data, SSA verifies the accuracy
of the name/SSN combination in the NDNH against the Agency's Numident, as required by
this Act. This information is shared with OCSE but not the employer. In addition to the
States, 146 Federal agencies report new hires and quarterly wage data directly to the
NDNH. The NDNH contains three types of records: new hire records, quarterly wage
records, and unemployment insurance records. An estimated 68 million new hires are
submitted to NDNH annually.

Under the SSN Pilot, SSA notified all employers in the two States when they submitted an
incorrect name and SSN combination. Employers were not required to submit another new
hire report but instead were asked to correct their records so all future wage filings to
Federal and State agencies contain accurate data.

SSA and the OCSE reported on the results of the SSN Pilot in an October 2002 document,
Working Together with Employers to Improve Data Accuracy: The Results of the SSN
Feedback Pilot Project.




1
    Hereafter referred to as the SSN Pilot.
2
    Public Law (P.L.) 104-193, section 313.
3
  Federal law requires that all employers submit a new hire report to the State Directory of New Hires (SDNH)
no later than 20 days after the date the employer hires the employee. The SDNH must enter the data into its
database within 5 business days of receipt of the new hire report. Within 3 business days, the SDNH must
furnish the information to the NDNH.


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                     1
                                                     Results of Review
The SSN Pilot offers a number of advantages to SSA, employers, employees, and other
Federal and State programs that use SSN information. In particular, the SSN Pilot provided
more timely and accurate name and SSN information to these parties. Our report is based
on the results of SSA and OCSE findings in their October 2002 final report, Working
Together with Employers to Improve Data Accuracy: The Results of the SSN Feedback
Pilot Project as well as our own observations. We provide additional detail in the
appendices to this report.

TIMELINESS AND ACCURACY OF EMPLOYEE INFORMATION
The SSA/OCSE report states that the SSN Pilot feedback to employers improved the
timeliness of employer corrections as well as the accuracy of information used by both the
government and private sector. The report estimates employers were notified of name and
SSN mismatches 12 to 18 months earlier than under the regular wage reporting process at
SSA. In addition, the report notes that the SSN Pilot increased the annual wage reporting
accuracy of the SSN Pilot employers by approximately 10 percent.4

EMPLOYER NOTIFICATION PROCESS UNDER THE
SOCIAL SECURITY NUMBER PILOT

Under the SSN Pilot, employers in Illinois and Massachusetts submitted their new hire
information through the normal OCSE process. This information was verified against SSA's
Numident,5 and, every 2 weeks, unverified results were sent to SSA to produce and mail
notices to employers. Employers who received these notices 4 to 6 weeks after hiring a
new employee were informed that the name and SSN on their new hire data failed to verify
against SSA's records. The notices were sent to employers between August 1999 and July
2000. See Appendix C for a copy of the notice sent to employers and Appendix D for more
information on the employers who received these notices.

Employers receiving the notices were asked to

      (1)   verify their records against the information submitted;
      (2)   ensure the name and SSN were the same as shown on the SSN card;
      (3)   correct any errors in their payroll records; and
      (4)   inform employees to contact SSA to report a name change or lost SSN card.

The SSA/OCSE report estimates that the SSN Pilot led to a 10-percent correction rate in
subsequent Wage and Tax Statements (W-2) submitted to SSA for these same employees.
While the initial correction rate was higher than 10 percent, the number was later adjusted



4
 This rate would apply only to the new hire information provided by these employers and not their overall
payroll if errors also existed among the data for longer term employees.
5
    The Numident is SSA's database containing all issued SSNs.


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                 2
to account for (1) employer corrections that may have been made even in the absence of
the notice and (2) SSA corrections that would normally occur after the wages have been
reported, which we describe in the next section.

EMPLOYER NOTIFICATION PROCESS BEFORE THE
SOCIAL SECURITY NUMBER PILOT

Under the current process, OCSE does not notify employers of inaccuracies in their
employee data while SSA notifies employers at the end of the wage reporting process,
which can be more than 1 year later. While current law requires that OCSE collect
employee new hire data from each employer and verify this information against SSA's
Numident, OCSE has not sent the unverified data back to employers for correction. As a
result, employers were not notified of accuracy problems with the employee information
they submitted to OCSE for processing.

OCSE estimates that about 7.3 million (10.7 percent) of the approximately 68 million W-4s
submitted by employers annually have invalid name and SSN combinations.6 If we apply
this 10.7 percent rate to the approximately 250 million new hire records OCSE collected
between October 1997 and April 2002, approximately 27 million records were never
resubmitted to employers for correction.

SSA notifies the employers about mistakes in their W-2 submissions, but these notices are
sent to employers 12 to 18 months after OCSE/SSA verify the employee information. SSA
reviews the accuracy of employee information on the W-2 during the Annual Wage
Reporting (AWR) process7 and, should a name/SSN mismatch occur that cannot be
resolved through normal edits, the wages go into SSA’s Earnings Suspense File (ESF) until
the name/SSN mismatch is resolved. Next, SSA sends notices to employees, decentralized
correspondence (DECOR),8 and employers, educational correspondence. However, by the
time the AWR and notification process have been completed, more than 18 months could
have passed since the individual began to work for the employer.

SSA allows employers to verify the names and SSNs of employees through its various
employee verification services (EVS). However, the use of EVS is voluntary. EVS can
assist employers in eliminating common SSN reporting errors. Depending on the number of
SSNs they want to verify, employers can call an 800-number for 5 or fewer, or submit a
paper request for up to 50 names directly to an SSA field office. Employers who wish to
verify 51 or more SSNs are encouraged to register for the EVS program.




6
 Not all errors may have originated with the employers. Some of the errors may relate to data keying errors by
State employees. This is more common with paper W-4s, which represent about 75 percent of employer
submissions.
7
 SSA's AWR process involves the employer sending SSA a W-2 for each employee in the year following the
year of earnings.
8
 Information on the DECOR process is provided in our July 2002 audit, The Effectiveness of the Social
Security Administration’s Decentralized Correspondence Process (A-03-01-11034).


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                  3
See Figure 1 for a timeline showing a comparison between the current process and the
SSN Pilot process.


                     Figure 1: Timeliness of SSA Feedback to Employers Under
                                 Current Process And Pilot Process

                                                      Pilot Process                               Current Process

                     SSN
                    Feedback
                     Pilot                                                               Wage Report Processing and
                                                                                          Mismatch Correspondence
                                   Employee Verification Services (1)
                                                                                          To Employees/Employers




                   1               2              6                           12          14 s             18            21 s             24
                 th its          th es       th                                         th it s                       th ice s
               on m ta                                                   th                           th                             th
                              on vid ck    on                          on            on bm ge       on              on  t    er    on
            M ub Da         M o                                                     M Su a                       M No loy
             r S ire           r dba      M                           M
                                                                                     r    W
                                                                                                   M               n    p
                                                                                                                                  M
          ye H              t P ee                                                 ye ual                        io
         o                lo    F                                                 o                            ct Em
       pl ew            Pi                                                       l
                                                                                p n   n                      re o
           N                                                                                               or d t
     Em                                                                       Em A                      t C ile
                                                                                                      os Ma
                                                                                                     M
                   Note 1: Employee Verification Service can be used from the date of hire.




SOCIAL SECURITY NUMBER PILOT ADVANTAGES
FOR USERS OF INFORMATION

The SSN Pilot provided more timely and accurate information to the various users of the
employee data. As a result, SSA was able to improve wage postings and could potentially
reduce program administration costs. In addition, employers were able to correct their
employee records in a timely manner and potentially minimize their reporting burden to
Federal agencies. Finally, other Federal and State agencies are expected to benefit from
corrected names and SSNs when administering their programs.

SOCIAL SECURITY ADMINISTRATION ADVANTAGES

There are many advantages for SSA in using the SSN pilot information. In particular, the
SSN Pilot showed that SSA can (1) increase the number of wages posted to an employee's
earnings history; (2) decrease the number of wages posted to the ESF; and (3) assist
employers by verifying all of their new employees, similar to what the Agency is attempting
with EVS.

Postings to the Master Earnings File

The SSN Pilot can improve the accuracy of SSA’s earnings records and increase the
number of items properly posted to wage earners' accounts. Without a correct name and/or



Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                                                    4
SSN on the Form W-2, an employee’s earnings record with SSA may never be properly
credited with wages received from the employer. This may result in a reduction in the
employee’s Social Security and Medicare benefits (or those of his or her survivors).

The SSA/OCSE report indicated, in terms of quarterly reporting data, that the national
implementation of an SSN feedback process would provide NDNH with accurate, verified
name/SSN combinations for approximately 1 million additional wage earners. The report
did not address the volume of anticipated corrections for annual W-2 submissions to SSA.
However, if we apply the SSN Pilot correction rate of 10 percent to the 7.3 million new hires
reported incorrectly to OCSE annually, then the SSN Pilot has the potential of correcting the
name/SSN combination on approximately 730,000 W-2 items reported to SSA each year.
These 730,000 items represent approximately $3.8 billion in associated wages.9

Postings to the Social Security Administration’s Earnings Suspense File

Improved reported accuracy by employers under the SSN Pilot would also reduce the
number of items posted to the ESF. As of July 2002, SSA’s ESF contained approximately
236 million wage items totaling about $374 billion related to Tax Years (TY) 1937 through
2000. In TY 2000 alone, 9.6 million items and $49 billion in wages were posted to the ESF.
If we use the estimated correction of 730,000 items with $3.8 billion in associated wages
shown above, the SSN Pilot would have prevented approximately 8 percent of the items
and associated wages from going into the ESF in TY 2000.

The SSN Pilot could also assist SSA in reducing ESF administrative costs. Fewer items in
the ESF means SSA has to expend fewer resources to resolve these name/SSN
discrepancies. Even though SSA created a new notice and mailing process for employers
under the SSN Pilot at a cost of $.50 per notice, the report notes:

        Although SSA's analysis suggests that implementation of the W-4 feedback notice
        generates few cost savings in the current AWR system, integration of the notice with
        other letters currently generated in response to an invalid name/SSN combination
        could yield substantial cost savings to both SSA and the employer community.

At this point, SSA has not prepared a cost justification to fully implement this project. In
addition, since this is a joint effort between SSA and OCSE, the distribution of costs
associated with an expanded SSN Pilot would need to be determined.10 Furthermore, in the
report, OCSE and SSA have recommended that the SSN Pilot be expanded to include
additional States and subject to a rigorous analysis by SSA’s Office of Quality Assurance.
This additional analysis may provide more information on implementation costs.




9
 Using TY 2000 ESF data, we calculated an average annual wage of $5,148, and assumed that this estimated
wage would be the same as that for the corrected items from the SSN Pilot process.
10
  SSA and OCSE could also seek reimbursement on a cost reimbursable basis from other Federal and
State agencies that benefits from the use of the data. We discuss these benefits in a later section of the
report.



Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                  5
Employee Verification Services

The SSN Pilot offers SSA a chance to expand its EVS services. For instance, the SSN Pilot
automatically provided EVS services to all employers in Massachusetts and Illinois who
hired new employees during the Pilot period. Expansion of the SSN Pilot into a nation-wide
system would provide an opportunity to verify the new hires of all U.S. employers, provide
timely feedback on name/SSN mismatches, and assist SSA in reducing the size of the ESF.
As we noted earlier, approximately 68 million new hire reports are sent to OCSE, annually.
In addition, since U.S. employers are already required to report new hire data for SSA
verification, SSA would not be dependent on voluntary participation. While employers may
still choose to take advantage of SSA's EVS services for their existing employees (as
compared to new hires), over time, a nation-wide verification system should capture most of
the U.S. labor force as individuals change occupations.

Previous Office of the Inspector General (OIG) reports have noted (1) the need for
mandatory use of EVS by employers and (2) the low use of the EVS programs throughout
the U.S. economy. For example, our January 2002 audit11 recommended that SSA seek
legislative authority to provide SSA with the tools to require that chronic problem employers
use EVS.12 Our September 2002 audit13 noted that, while the number of employers
registering with EVS has increased since 1997, overall, just 7,400 employers—less than
1 percent of all U.S. employers—were registered to use EVS.14 Furthermore, only
392 employers (5 percent of those registered) have submitted data to SSA since 1999.
Finally, while the number of employers registered for EVS has increased over the years, the
rate of usage actually decreased during the same period.

SSA is also involved in employee verification pilots where the name/SSN information is
verified as well as an employee’s employment eligibility. Two ongoing SSA pilots with the
Department of Homeland Security’s Bureau of Citizenship and Immigration Services are
described in Appendix E.

ADVANTAGES FOR EMPLOYERS

The SSN Pilot also offered such benefits to the employer as (1) early notification of
problems regarding wage data submissions and (2) reduced administrative burden when
verifying new hires. This early notification is particularly important since SSA and the IRS
are collaborating to assess penalties against employers who continue to submit wage


11
  Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry (A-08-99-41004),
January 2001.
12
  SSA disagreed with our recommendation that chronic problem employers be required to use EVS,
stating that the Internal Revenue Service already has the authority to penalize employers who do not
comply with wage reporting requirements.
13
  The Social Security Administration’s Employee Verification Service for Registered Employers
(A-03-02-22008), September 2002.
14
 Since our audit was limited to EVS for registered users, we cannot comment on the volume of employers
who verified SSNs through SSA’s teleservice centers and field offices.


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                              6
reports with mismatched name/SSN combinations. Employers that resolve these problems
before their annual wage reporting will be able to avoid IRS penalties.

Early Notification of Problems

The SSA/OCSE report noted that early notification of incorrect name/SSN combination
errors could help employers save time and reduce costs related to payroll issues. Under
SSA’s wage reporting system, employers might receive notification of these errors 12 to
18 months after SSA initially detects the name/SSN mismatch. By the time this notification
occurs, the employer may have used the “invalid” name/SSN in numerous reports and
transactions with Federal entities as well as other parties. Early notification of an error can
reduce the employers' administrative time in correcting employee records and allow
employers to concentrate on other issues at year-end, such as tax and financial matters.

Additionally, early notification to the employer can help resolve problems with the “seasonal
employees” that work for them. We define “seasonal employees” as transient individuals
who work for only part of a year with one employer. These employees usually have left the
employer when the employer receives notification from SSA concerning an incorrect
name/SSN combination. Hence, in many cases, the employer cannot correct the
information submitted to SSA, and the employee does not receive any credit for the wages
earned.15

In a November 23, 1998 letter to SSA cited in the SSA/OCSE report, the American Society
for Payroll Management stated:

       Notifying employers of errors contained in their annual W-2 submission is too late.
       By that time, many employees have left and there is no way to correct the
       information. We feel strongly that providing immediate feedback to employers as
       close to the hiring event as possible will make a significant difference in the accuracy
       of Social Security numbers and names reported by employers.

Employer Reporting Burden

As noted earlier, the SSN Pilot used new hire information employers are already required to
provide to OCSE. Hence, unlike other SSA verification programs, the SSN Pilot did not
place any new reporting requirements on the employer. In effect, the verification process
was invisible to the employer. Nonetheless, the employer benefited from timely verification
that would not have otherwise occurred under the normal OCSE process.

Some employers have noted that SSA's employee verification services can be slow and
cumbersome. In a June 17, 1998 letter to SSA also cited in the report, the American Payroll
Association (APA) noted:

       APA members are aware of the various tools already available to assist employers in
       identifying name/SSN mismatches. Unfortunately, none of the tools are adequate for
       the large employer. For instance, in order to use SSA’s much publicized [EVS], a

15
  We mention the benefits of earlier verification for transient employees in our report, Management
Advisory Report: Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022),
September 2001).


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                           7
        large employer must provide the agency with magnetic tape or a diskette. Producing
        this tape often requires the assistance of systems support personnel outside the
        payroll department. Then the tape must be mailed and processed by SSA.

SSA is piloting a new on-line EVS program, called the Social Security Number
Verification Service, to eliminate the need for magnetic tapes and diskettes as part of
the verification process. However, employers still need to register with SSA to use
this service, and the verification process will still entail extra steps by the employers.
The SSN Pilot did not ask employers to perform any additional tasks beyond those
already required by law.

Internal Revenue Service Penalties

The Internal Revenue Code provides for a penalty against employers that do not file correct
Forms W-2. An inaccurate name/SSN combination is classified as an incorrect information
return. The penalty is up to $50 for each inaccurate return.16 Beginning in July 2004, the
IRS plans to implement a penalty program for Forms W-2 with inaccurate name/SSN
combinations.17 The SSN Pilot provided employers with the opportunity to correct
name/SSN mismatches before they were reported on a W-2 and became subject to IRS
penalties.

ADVANTAGES FOR OTHER FEDERAL AND STATE PROGRAMS

The SSN Pilot offers numerous additional advantages to Federal and State programs when
it leads to corrected name/SSN employee information. The SSA/OCSE report identified
some potential benefits the following organizations may realize: (1) OCSE; (2) the IRS;
(3) the Department of Education, and (4) various State agencies. In Table 1, we summarize
of the advantages derived under the SSN Pilot.




16
  26 U.S.C. § 6721 (a) (2002). The total penalty imposed on an employer for 1 year cannot exceed $250,000.
Penalties for businesses with less than $5 million in gross receipts are limited to $100,000.
17
  IRS report, The Internal Revenue Service Does Not Penalize Employers that File Wage and Tax Statements
with Inaccurate Social Security Numbers, September 2002, Reference Number: 2002-30-156.


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                              8
                      Table 1: Advantages of SSN Feedback Pilot for
                            Other Federal and State Programs

  GOVERNMENT          SSN PILOT BENEFITS
    AGENCY             CITED IN SSA/OCSE                           DESCRIPTION
                            REPORT
  SSA                Reduced Supplemental SSA uses NDNH data on-line as part of its
                     Security Income (SSI) pre-claims processing since the leading
                     overpayments          source of payment error in the SSI program is
                                           undisclosed wages. If an applicant alleges no
                                           earnings, eligibility and payment amounts are
                                           determined on that basis. Improved accuracy
                                           in the NDNH data should lead to greater
                                           detection of undisclosed wages.

  OCSE               Increased child support More accurate data can improve the operation
                     collections             of OCSE’s Federal Parent Locator Service
                                             (FPLS), increasing the number of non-
                                             custodial parents located by the FPLS and the
                                             amount of child support collected.
  IRS                Tax administration      The accuracy of name/SSN combinations can
                     benefits                improve the IRS’ productivity for tax
                                             identification purposes. Additionally, the
                                             accuracy of name/SSN combinations can be
                                             used by the IRS. The IRS accesses data in
                                             the Federal Case Registry of Child Support
                                             Orders to verify taxpayer eligibility for the
                                             Earned Income Tax Credit.
  Department of      Increased collection of     An increase in the accuracy of name/SSN
  Education          defaulted loans             combinations could increase collections of
                                                 defaulted loans by the Department of
                                                 Education.
  State              Accuracy of records,        State agencies can realize an increased
  Agencies           fraud detection             number of name/SSN matches from the
                                                 improved accuracy of Quarterly Wage records
                                                 to locate fraud in their unemployment
                                                 insurance programs. Also, State agencies
                                                 have access to new hire data for the
                                                 verification of eligibility for various programs.
                                                 These programs include Temporary
                                                 Assistance for Needy Families, Medicaid,
                                                 unemployment compensation, food stamps
                                                 and other programs.




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                      9
                                                                 Conclusions
We commend SSA and OCSE for their efforts regarding the SSN Pilot. Their completed
report indicates that prompt notification to an employer of an incorrect name/SSN
combination can increase the accuracy of the name/SSN combination in future quarterly
wage reports submitted to the NDNH. Additionally, the report suggests that there is an
improvement in the accuracy of the name/SSN combination in annual wage reports
submitted by employers under the new hire process.

The SSA/OCSE report, as well as our own observations, indicate that expansion of the SSN
Pilot may be a worthwhile investment for SSA and OCSE. Furthermore, this expansion
should include additional analysis to document the return on investment. The benefits of an
expanded SSN Pilot would include:

   •   Timely reporting of name/SSN errors to employers leading to increased accuracy of
       the information submitted to government agencies.

   •   Increasing the likelihood that (1) wages are posted to an employee's earnings
       history; (2) wages are not posted to the ESF; and (3) more employers are assisted
       with verification of their new employees.

   •   Providing employers with (1) early notification of problems regarding wage data
       submissions; (2) a reduced administrative burden when verifying new hires; and
       (3) resolution of name/SSN errors so they are not subject to IRS penalties.

   •   Increasing the efficiency and effectiveness of Federal and State programs by
       (1) reducing overpayments; (2) increasing child support collections, (3) improving tax
       identification; (4) increasing the collection rate on defaulted loans; and (5) improving
       the accuracy of government records while detecting fraud.




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                  10
                                           Appendices
  Appendix A – Acronyms

  Appendix B – Scope and Methodology

  Appendix C – Social Security Number Pilot Notification Form

  Appendix D – Characteristics of the Social Security Number Pilot Responses

  Appendix E – Additional Social Security Administration Employee Verification Pilots

  Appendix F – Prior Office of the Inspector General Reports

  Appendix G – OIG Contacts and Staff Acknowledgments




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)
                                                                              Appendix A
Acronyms
     APA                 American Payroll Association

     AWR                 Annual Wage Reporting

     BCIS                Bureau of Citizenship and Immigration Services

     DECOR               Decentralized Correspondence

     ESF                 Earnings Suspense File

     EVS                 Employee Verification Service

     FPLS                Federal Parent Locator Service

     IIRIRA              Illegal Immigration Reform and Immigrant
                         Responsibility Act

     IRS                 Internal Revenue Service

     NDNH                National Directory of New Hires

     OCSE                Office of Child Support Enforcement

     OIG                 Office of the Inspector General

     SDNH                State Directory of New Hires

     SSA                 Social Security Administration

     SSI                 Supplemental Security Income

     SSN                 Social Security Number

     TY                  Tax Year

     Forms:

     I-9                 Employment Eligibility Verification

     W-2                 Wage and Tax Statement

     W-4                 Employee's Allowance Withholding Certificate




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)
                                                                              Appendix B
Scope and Methodology
To respond to the Chairman’s questions, we:

•   Obtained policies and procedures regarding the Social Security Number (SSN)
    Feedback Pilot Project.

•   Obtained and reviewed the final report completed on the SSN Pilot.

•   Obtained and analyzed a data extract from Office of Child Support Enforcement (OCSE)
    of SSNs returned to employers under the SSN Pilot. Using this information, we
    determined and identified the number of employers involved in the feedback process,
    the number of notices sent to employers based on name/SSN mismatches, and those
    industries in which the name/SSN mismatches occurred.

•   We compared the SSN Pilot results with the Social Security Administration’s ongoing
    Employee Verification Service efforts to reduce the growth of the Earnings Suspense
    File.

•   Reviewed the overall benefits of the SSN Pilot Project to (1) the Social Security
    Administration, (2) employees, (3) employers, and (4) other Federal and State
    programs.

Our audit did not include a test of information systems to verify the completeness and
accuracy of the SSN Pilot data, including the OCSE feedback data submitted for our review.
Our work was conducted in Philadelphia, Pennsylvania, from November 2002 to February
2003. We conducted our review in accordance with generally accepted government
auditing standards.




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)
                                                                                               Appendix C
Social Security Number Pilot Notification Form
Social Security Administration
Retirement, Survivors, and Disabilities Insurance
Important Employment Information


                                                            Social Security Administration
                                                            300 N. Greene Street
                                                            Baltimore, MD 21290-0300



Employer Name
Employer Street Address 1
Employer Street Address 2
Employer Street Address 3
City, State ZIP                                             Employer Identification Number

We are writing to you about the name(s) and Social Security number(s) (SSN) shown below. Recently, you provided
information on newly hired employees to your State Directory of New Hires. This information was forwarded to the
Social Security Administration to verify the accuracy of the name(s) and SSN(s) you provided, and the following name(s)
and SSN(s) don't agree with our records.

FName         MName         LName             Employee SSN
FName         MName         LName             Employee SSN
FName         MName         LName             Employee SSN
FName         MName         LName             Employee SSN
FName         MName         LName             Employee SSN

Please do the following:

•   Check your records to verify that you reported the name and SSN as furnished by the employee
•   Ensure that the information recorded (name/number) is exactly as shown on the Social Security Card
•   If an incorrect name or SSN is being used, correct it
•   Ask the employee to call SSA toll free at 1-800-772-1213 or contact any Social Security Office to report a name
    change or replace a lost Social Security card.

Accurate names and SSNs are important to you and your employees for several reasons. Federal and State agencies will
receive more accurate data, which will ensure accuracy of benefits to which your employees may be entitled. For
example, SSA uses the name and SSN to maintain a record of earnings for each of your employees. Generally, we are not
able to credit an employee's Social Security record for his or her earnings unless the name and SSN reported on the Form
W-2 agree with our records. Also, Forms W-2, which do not agree with SSA's records may subsequently be returned for
correction. Incorrect reporting may therefore impact the eligibility and amount of Social Security benefits, or other
government benefits, due your employee.




                                                   (Please See Reverse)                      Form SSA-L8188 (4-99)




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                           C-1
This letter is intended to allow you to correct your records in order to submit correct data in all future filings to Federal
and State agencies, (e.g., Form W-3/W-2 Wage and Tax Statement). You do not need to submit a corrected new hire
report for the employee(s).

If you have any questions about this letter, you may call our Employer Reporting Service Center toll-free at 1-800-772-
6270 from 7:00 a.m. to 7:00 p.m., eastern standard time (this number is for employers only).



                                                           /s/


                                                           W. Burnell Hurt
                                                           Associate Commissioner
                                                           Office of Central Operations




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                                                     C-2
                                                                                           Appendix D
Characteristics of the Social Security Number Pilot
Responses
The Office of Child Support Enforcement (OCSE) provided us with a data extract of the name/Social
Security number (SSN) mismatches that occurred during the SSN Feedback Pilot Project.
The extract contained approximately 210,800 notices containing about 426,100 specific
name/SSN mismatches reported to employers.1 About two-thirds of the notices were
mailed to employers in Illinois and the remaining one-third to employers in Massachusetts.

We identified 53,432 employers related to these notices.2 Of the top 20 employers among
the data, we found the largest representation was temporary employment agencies. The
break-out among industries was as follows.

•   Temporary/Services – 53 percent
•   Payroll Services – 23 percent
•   Retail – 13 percent
•   Restaurant – 6 percent
•   State Government – 3 percent
•   Packaging – 2 percent

These 20 employers received approximately 10,415 notices under the SSN Pilot. These
same employers later submitted a total of 680,462 W-2s to SSA for Tax Year 2000.


                           Industry Distribution of Top 20 Employers

                                     State       Packaging
                                 Government         2%
                                       3%
                            Restaurant
                               6%

                              Retail
                               13%
                                                                     Temporary/
                                                                      Services
                                                                        53%

                                    Payroll
                                   Services
                                     23%




1
  While only 393,102 notices were sent to employers under the final SSN Pilot, another 32,998 notices were
issued in the earlier testing phase. OCSE staff provided a file that combined the final data with the test data.
2
 We used the Employer Identification Number, a tax identification number issued by the Internal Revenue
Service, to determine the number of employers.


Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)
                                                                              Appendix E
Additional Social Security Administration Employee
Verification Pilots
Title IV, Subtitle A of the Illegal Immigration Reform and Immigrant Responsibility Act of
1996 (IIRIRA),1 provides that all U.S. employers, subject to eligibility for participation,
geographical limitations, and limitations of available Bureau of Citizenship and Immigration
Services (BCIS) and Social Security Administration (SSA) resources may elect to
participate in one or more of three employment verification pilot programs ― the Basic Pilot,
the Citizen Attestation Pilot, and the Machine-Readable Document Pilot. The Citizen
Attestation Pilot does not involve SSA in the verification process, so we do not discuss it
below.

IIRIRA requires that the Attorney General, BCIS, and SSA implement the pilot programs to
test different methods of providing an effective nondiscriminatory work eligibility verification
procedure focusing on electronic verification. Through an automated confirmation system,
employers will match information provided by employees on the Employment Eligibility
Verification (Form I-9) against existing information contained in SSA's and BCIS' databases
to confirm an individual is eligible to work.

BASIC PILOT PROGRAM

The Basic Pilot is being conducted jointly by the BCIS and SSA in the States of California,
Florida, Illinois, Nebraska, New York, and Texas. The pilot started in November 1997. On
January 16, 2002, the President signed into law H.R. 3030 (P.L. 107-128), to extend the
basic pilot program for employment eligibility verification until 2004.

Employers participating in the Basic Pilot check the SSA automated system to verify the
name, SSN, and date of birth of all newly-hired employees, regardless of citizenship. When
the Numident shows the newly-hired employee is a U.S. citizen or permanent resident alien,
SSA's automated system also confirms employment eligibility. When the SSA automated
system cannot confirm employment eligibility, employers must check the BCIS automated
system.

The Basic Pilot program is free to employers who volunteer to participate. The BCIS
provides the software, manual, notices, and a computer based tutorial which provides
information relating to Basic Pilot policy and procedures. The SSA and the BCIS continue
to recruit employers for participation in the Basic Pilot program. To participate, an employer
must sign an agreement with the BCIS and SSA.




1
    Public Law 104-208.



Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                  E-1
MACHINE-READABLE DOCUMENT PILOT PROGRAM

In May 1999, the BCIS and SSA began conducting the Machine-Readable Document Pilot
in Iowa. The Machine-Readable Document Pilot is identical to the Basic Pilot in all
respects, except for the more limited geographic scope of the pilot and the machine-
readable feature. The pilot is expected to last 4 years.

If an employee presents an Iowa’s driver’s license or identification card containing a
machine-readable SSN, the employer will make an inquiry through the confirmation system
by using the machine-readable feature. To participate, an employer needs a personal
computer with a modem. The BCIS will provide the machine-reading device at no cost to
the employer.

The Machine-Readable Document Pilot will end in May 2003. On March 11, 2003, the
BCIS sent a letter to participating employers requesting that they register for the Basic Pilot.




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)                  E-2
                                                                              Appendix F
Prior Office of the Inspector General Reports
     Office of the Inspector General Reports Related to Social Security
                       Number Pilot Feedback Project
       Common
     Identification                          Report Title                       Date Report
        Number                                                                    Issued
  A-03-03-23038        Status of the Social Security Administration’s         November 2002
                       Earnings Suspense File
  A-03-02-22008        The Social Security Administration’s Employee          September 2002
                       Verification Service for Registered Employers
  A-03-01-11034        The Effectiveness of the Social Security                 July 2002
                       Administration’s Decentralized Correspondence
                       Process
  A-03-00-10022        Management Advisory Report: Review of Service          September 2001
                       Industry Employer with Wage Reporting Problems
  A-01-00-20006        Review of the Social Security Administration’s           May 2001
                       Office of Child Support Enforcement Pilot
                       Evaluation
  A-08-99-41004        Obstacles to Reducing Social Security Number            January 2001
                       Misuse in the Agriculture Industry




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)
                                                                              Appendix G
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, (215) 597-4080

   Rona Rustigian, Director, (617) 565-1819

Acknowledgments
In addition to those named above:

   Walter Mingo, Auditor-in-Charge

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-03-13017.




Review of the Social Security Number Feedback Pilot Project (A-03-03-13017)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General


                                          Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief Financial
Officers' Act of 1990, assess whether SSA’s financial statements fairly present the Agency’s
financial position, results of operations and cash flow. Performance audits review the economy,
efficiency and effectiveness of SSA’s programs. OA also conducts short-term management and
program evaluations focused on issues of concern to SSA, Congress and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize program
fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition, this
office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices nationwide hold
themselves to the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s public affairs,
media, and interagency activities, coordinates responses to Congressional requests for information,
and also communicates OIG’s planned and current activities and their results to the Commissioner
and Congress.

                                     Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing by
applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third parties,
and by SSA employees in the performance of their duties. OI also conducts joint investigations with
other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General on
various matters, including: 1) statutes, regulations, legislation, and policy directives governing the
administration of SSA’s programs; 2) investigative procedures and techniques; and 3) legal
implications and conclusions to be drawn from audit and investigative material produced by the OIG.
The Counsel’s office also administers the civil monetary penalty program.
